30

FILED: June 26, 2019

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 15-1929
(8:15-cv-01297-GJH)

VERONICA W. OGUNSULA
Plaintiff - Appellant

ATTORNEY GENERAL ERIC H. HOLDER, JR., in
his individual capacity as U.S. Attorney General,
Department of Justice (DOJ); JAMES B. COMEY, in
his individual capacity as Director, Federal Bureau
of Investigation, Washington, DC; THOMAS E.
PEREZ, individually and as former Assistant
Attorney General, Civil Rights Division, DOJ; H.
MARSHALL JARRETT, individual and as former
Director, U.S. Attorney's Office, (DOJ); MICHAEL E.
HOROWITZ, individually and in his capacity as the
Inspector General (DOJ); JOSEPH S. CAMPBELL,
in his individual capacity as Deputy Assistant
Director, Criminal Investigative Division, FBI;
SANDRA A. BUNGO, in her individual capacity as
Unit Chief, Initial Processing Unit, Internal

31

Investigations Section, Inspective Division, FBI; MR.
ROD ROSENSTEIN, individually, U.S. Attorney for
Maryland; BRYAN E. FOREMAN, individually and
his official capacity as the former Assistant U.S.
Attorney; THOMAS COYLE, individually and in his
official capacity as an Agent, FBI

Defendants - Appellees

ORDER

Upon appellant's request for further review, the
court recalls its mandate, grants appellant's motion
to reconsider the denial of an extension of time to file
her petition for rehearing and rehearing en banc, and
deems the petition for rehearing and rehearing en
bane filed June 9, 2016, to be timely filed.
Upon review of the petition, the court denies
rehearing and rehearing en bane. No member of the
court requested a poll on the petition for rehearing
en bane. Pursuant to Fed. R. App. P. 41(b), the
mandate shall reissue seven days after entry of this
order.
For the Court
/s/
Patricia S. Connor, Clerk

32

FILED: March 21, 2016

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 15-1929
(8:15-cv-01297-GJH)

VERONICA W. OGUNSULA
Plaintiff - Appellant
v
ATTORNEY GENERAL ERIC H. HOLDER, JR., in
his individual capacity as U.S. Attorney General,
Department of Justice (DOJ); JAMES B. COMEY, in
his individual capacity as Director, Federal Bureau
of Investigation, Washington, DC; THOMAS E.
PEREZ, individually and as former Assistant
Attorney General, Civil Rights Division, DOJ; H.
MARSHALL JARRETT, individual and as former
Director, U.S. Attorney's Office, (DOJ); MICHAEL E.
HOROWITZ, individually and in his capacity as the
Inspector General (DOJ); JOSEPH S. CAMPBELL,
in his individual capacity as Deputy Assistant
Director, Criminal Investigative Division, FBI;
SANDRA A. BUNGO, in her individual capacity as
Unit Chief, Initial Processing Unit, Internal
Investigations Section, Inspective Division, FBI; MR.

33

ROD ROSENSTEIN, individually, U.S. Attorney for
Maryland; BRYAN E. FOREMAN, individually and
his official capacity as the former Assistant U.S.
Attorney; THOMAS COYLE, individually and in his
official capacity as an Agent, FBI
Defendants - Appellees

JUDGMENT

In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court's mandate in accordance with Fed. R.
App. P. 41.
For the Court
/s/
Patricia S. Connor, Clerk

34

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division

Case No.: GJH-15-1297

VERONICA W. OGUNSULA,
Plaintiff,
v.
ERIC H. HOLDER, JR., ET AL.,
Defendants.

* * * * * * * * * * * * * *

MEMORANDUM OPINION
This case was filed by Plaintiff Veronica Ogunsula
("Plaintiff') and was transferred to this Court from
the United States District Court for the District of
Columbia on May 6, 2015. See ECF No. 5. The
complaint was accompanied by a Motion for Leave to
Proceed in Forma Pauperis and an Emergency
Motion for Order to Vacate and Rescind Eviction. See
ECF Nos. 2 and 3. Because Plaintiff appears
indigent, her Motion for Leave to Proceed in Forma

35

Pauperis shall be granted. For the reasons stated
below, however, Plaintiffs complaint must be
dismissed and the Emergency Motion denied.
Plaintiffs 74-page complaint concerns events dating
back to 2005 and depicts a complicated conspiracy
theory culminating in a foreclosure on Plaintiffs
home and subsequent eviction from the premises.2
The defendants in this action include, but are not
limited to, current and former federal prosecutors,
current and former state prosecutors, federal agents,
local police chiefs, real estate agents, and church
pastors. The allegations are as boundless and
seemingly disconnected from one another as the list
of defendants. In short, Plaintiff believes that during
her employment with a Prince George's County
government agency that was connected to the
Department of Homeland Security, she witnessed
fraud and abuse regarding payments to a contractor.
She further alleges that she was the victim of various
acts of wrong-doing at various times and in various
jurisdictions, including, but not limited to, stalking,
burglary, and a sexual assault. Plaintiff contends
that she reported this activity to various lawenforcement Defendants and that they did not
process her reports. As a result, Plaintiff alleges that
a cascade of consequences followed, including the loss
of her job and foreclosure on her house. See ECF No.
1. As such, Plaintiff instituted this action against
Defendants regarding, among other allegations, their
2 1 See Geesing v. Ogunsula, Case No. CAE13-07229 (Cir. Ct.
for Pr. G. Co. 2013) (indicating that Plaintiff was evicted from
her home on April 23, 2015);
http://casesearch.courts.state.md.us/inquiry.

36

failure to investigate her complaints, witness
intimidation and conspiracy, and the foreclosure and
subsequent eviction.
As it relates to her foreclosure and eviction, Plaintiff
claims that "Fannie Mae and its agents, did not
provide proper notification to the plaintiff regarding
the eviction nor were they or their agents responsive
to the plaintiff (sic) request for information regarding
the eviction." ECF No. 3. She further claims that the
Sheriff for Prince George's County knowingly
"executed an improper and fraudulent eviction on
April 9, 2015." Id. Based on these allegations,
Plaintiff asserts various causes of action arising
under 42 U.S.C. §§1983, 1985, 1986, and 1994, as
well as claims under 18 U.S.C. §§1512 and 1513. See
ECF 1 at 35-7. Specifically, Plaintiff enumerates 15
counts, each of which relies on her assertion that her
constitutional rights were violated by Defendants'
failure to initiate criminal prosecutions upon receipt
of her complaints and the alleged failure to provide
proper notice to her prior to her eviction from her
home on April 9, 2015. Id. Case 8:15-cv-01297-GJH
Document 9 Filed 06/22/15 Page 2 of 7
3
The events not directly related to the eviction
described in the complaint which occurred more than
three years ago are barred by the statute of
limitations. "Section 1983 provides a federal cause of
action, but in several respects relevant here federal
law looks to the law of the State in which the cause
of action arose. This is so for the length of the statute
of limitations: It is that which the State provides for

37

personal-injury torts." Wallace v. Kato, 549 U.S. 384,
387 (2007) (citing Owens v. Okure, 488 U.S. 235,
249-250 (1989)). In Maryland, the applicable statute
of limitations is three years from the date of the
occurrence. See Md. Cts & Jud. Proc. Code Ann.' 5101. A Statutes of limitations, like the one contained
in [Md. Cts & Jud. Proc. Code Ann.] ' 5-101, are
intended simultaneously to >provide adequate time
for diligent plaintiffs to file suit,= to >grant repose to
defendants when plaintiffs have tarried for an
unreasonable period of time,= and to >serve societal
purposes,= including judicial economy.@ Doe v.
Maskell, 342 Md. 684, 689 (Md. 1996) (quoting
Pennwalt Corp. v. Nasios, 314 Md. 433, 437 (Md.
1988)). Here, a number of Plaintiff's § 1983 claims
are premised on facts and circumstances that arose
well before the applicable three-year statute of
limitations. Those claims are therefore barred and
must be dismissed.
The claims asserted under §1983 which are not timebarred, nonetheless fail to state a claim upon which
relief may be granted. Although district courts have
a duty to construe self-represented pleadings
liberally, Plaintiff must nevertheless allege facts that
state a cause of action. See Beaudett v. City of
Hampton, 775 F.2d 1274, 1278 (4th Cir.1985). The
failure of law enforcement or a prosecutor's office to
investigate or prosecute an alleged crime is not
actionable and does not infringe on the constitutional
rights of the alleged crime victim. See Linda R.S. v.
Richard D., 410 U.S. 614, 619 (1973) ("[I]n American
jurisprudence at least, a private citizen lacks a
judicially cognizable interest in the prosecution or

38

nonprosecution of another."); see also Banks v.
Buchanan, 336 Fed. App'x 122, 123 (3d Cir. 2009);
Sargeant v. Dixon, 130 F.3d 1067, 1069 (D.C. Cir.
1997). All Defendants against whom such claims
could even logically be made are either law
enforcement officers or prosecutors. As such, their
failure to act upon Plaintiff's reports simply does not
give rise to a viable § 1983 claim as Plaintiff has no
constitutional right to insist on the criminal
prosecution of others.3
Because Plaintiff does not have a constitutional right
to insist on the criminal prosecution of others, her
conspiracy claims under 42 U.S.C. §1985 also fails. A
cause of action under §1985(3) requires proof of a
conspiracy to deprive a person of "rights or
privileges" under the law. Absent evidence that
Plaintiffs rights were violated by Defendants, there
is no claim under §1985.
As for Plaintiffs claim under 42 U.S.C. §1986, a
cause of action under this section is dependent upon
establishment of elements constituting a claim under
§1985. Specifically it requires a showing that
Defendants had knowledge of the "wrongs conspired
to be done, and mentioned in §1985 of this title" and
failed to prevent those wrongs from occurring. 42
U.S.C. §1986. Plaintiff has failed to state a cause of
Discretion has been granted to federal district judges under §
1915 to screen out meritless cases filed by pro se plaintiffs who
are proceeding without prepayment of costs, where the
complaints lack an arguable basis either in law or in fact. See
Neitzke v. Williams, 490 U.S. 319, 328 (1989); see also Nasim v.
Warden, Maryland House of Correction, 64 F.3d 951, 953 (4th
Cir. 1995).

3

39

action under §1985 and has therefore failed to state a
claim under §1986. See Santistevan v. Loveridge, 732
F.2d 116, 118 (10th Cir. 1984) ("Hence, there can be
no valid claim under § 1986 of neglect to prevent a
known conspiracy, in the absence of a conspiracy
under § 1985.").
Plaintiff's reliance on 42 U.S.C. §1994 is also
misplaced. Section 1994 abolished peonage and
prohibits "acts, laws, resolutions, orders, regulations,
or usages of any Territory or State, which have
heretofore established, maintained, or enforced, or by
virtue of which any attempt shall hereafter be made
to establish, maintain, or enforce, directly or
indirectly, the voluntary or involuntary service or
labor of any persons as peons, in liquidation of any
debt or obligation." 42 U.S.C. §1994. "The legislative
purpose of that Act was to implement the Thirteenth
Amendment by striking down all laws and usages in
the states and territories which attempt to maintain
and enforce the involuntary service of any person as
a peon, in liquidation of any debt." Whitner v. Davis,
410 F.2d 24, 30 (9th Cir. 1969). Nothing in the
complaint suggests that Plaintiff was subjected to
involuntary employment or service for purposes of
liquidating a debt. To the extent Plaintiff
characterizes her mortgage financed through Fannie
Mae as "indebtedness" for purposes of a claim
asserted under §1994, she was not forced to work
without pay to discharge that debt. This claim is
frivolous.
The remaining two provisions under which Plaintiff
asserts a cause of action, 18 U.S.C. §§1512 and 1513,

40

are criminal statutes prohibiting witness tampering
and retaliation against a witness. Neither provision
establishes a right to bring a civil cause of action
based on an allegation that the statutes were
violated and thus Plaintiffs allegations they were
violated do not state a claim upon which relief may
be granted. See Shahin v. Darling, 606 F.Supp.2d
525, 538-39 (D. Del. 2009) (dismissing civil claims
brought by plaintiff pursuant to 18 U.S.C. §§ 1512
and 1513 because neither criminal statute authorizes
a private cause of action).
With respect to Plaintiffs claim regarding the
alleged improper foreclosure on and eviction from her
home, her claim is not appropriately brought in this
Court. "Under the Rooker-Feldman4 [abstention]
doctrine, a >party losing in state court is barred from
seeking what in substance would be appellate review
of the state judgment in a United States district
court."' American Reliable Insurance v. Stillwell, 336
F. 3d 311, 316 (4th Cir. 2003) (quoting Johnson v. De
Grandy, 512 U.S. 997, 1005-06 (1994)). The RookerFeldman doctrine is jurisdictional and, as such, this
Court is free to raise it sua sponte. See Jordahl v.
Democratic Party of Va., 122 F.3d 192, 197 n. 5 (4th
Cir. 1997). A[T]he Rooker-Feldman doctrine . . .
preserves the independence of state courts as well as
congressional intent that an appeal from a state
court decision must proceed through that state's

District of Columbia Court of Appeals v. Feldman, 460 U.S.
462, 482,(1983); Rooker v. Fidelity Trust Co., 263 U.S. 413, 416
(1923).
4

41

system of appellate review rather than inferior
federal courts.@ Stillwell, 336 F. 3d at 391.
This Court may not grant "an injunction to stay the
proceedings in a State court except as expressly
authorized by Act of Congress, or where necessary in
aid of its jurisdiction, or to protect or effectuate its
judgments." 28 U.S.C. § 2283. Where the AntiInjunction Act bars injunctive relief, issuance of a
declaratory judgment that would have the same
effect as an injunction is also unavailable. See
Samuels v. Mackell, 401 U.S. 66, 73 (1971)
(declaratory relief has virtually the same practical
impact as a formal injunction). Additionally, where
equitable relief is sought regarding property that is
already the subject of an ongoing in rem action in
another court, the court controlling the property for
purposes of the earlier-filed suit has exclusive
jurisdiction over the property. See Princess Lida of
Thurn & Taxis v. Thompson, 305 U.S. 456, 466
(1939) (the jurisdiction of the second court must yield
to the court where the matter was first pending).
Thus, Plaintiffs Motion for Order to Vacate and
Rescind Eviction (see ECF No. 3) must be denied. To
the extent Plaintiff believes the foreclosure and
eviction were improper, she must avail herself of
appellate review in the Maryland state courts.
In addition to the above noted deficiencies, the
complaint, in its entirety, fails to comply with the
requirements of Fed. R. Civ. Proc. 8(a) which
requires "a short and plain statement of the claim
showing that the pleader is entitled to relief," and
Rule 8(e)(1), which requires that each averment of a

42

pleading be "simple, concise, and direct." The instant
complaint contains a plethora of extraneous
information seemingly unrelated to the claims
asserted. As such, it does not provide Defendants
"fair notice of what the plaintiffs claim is and the
grounds upon which it rests." Swirkiewicz v. Sorema
N.A., 534 U.S. 506, 512 (2002) (quoting Conley v.
Gibson, 355 U.S. 41, 47 (1957)).
For the reasons set forth herein, all counts of
Plaintiff's complaint shall be dismissed and the
Motion for Order to Vacate and Rescind Eviction
denied by separate Order which follows.

Dated: June 22, 2015

/S/
George J. Hazel
United States
District Judge

43

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division

Case No.: GJH-15-1297

VERONICA W. OGUNSULA,
Plaintiff,
v.
ERIC H. HOLDER, JR., ET AL.,
Defendants.

* * * * * * * * * * * * * *

ORDER

For the reasons stated in the foregoing Memorandum
Opinion, it is this 22nd day of
June, 2015, by the United States District Court for
the District of Maryland, hereby ORDERED
that:
1. Plaintiff's Motion to Proceed in Forma Pauperis
(ECF No. 2) is GRANTED;

44

Plaintiff's Emergency Motion for Order to Vacate
and Rescind Eviction (ECF No. 3) is DENIED;

The Complaint is DISMISSED without prejudice
as to Plaintiff's claims regarding foreclosure and
eviction and is DISMISSED with prejudice as to all
remaining claims for failure to state a claim upon
which relief may be granted;

The Clerk SHALL PROVIDE a copy of the
foregoing Memorandum Opinion and a copy of this
Order to Plaintiff; and

The Clerk shall CLOSE this case.

Dated: June 22, 2015

/S/
George J. Hazel
United States
District Judge

45

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 1:15-cv-00668

VERONICA W. OGUNSULA,
Plaintiff,
v.
ERIC HOLDER, JR. ET AL
Defendant.

TRANSFER ORDER

The plaintiff's claims pertain to her employment with
the government of Prince George's County,
Maryland, alleged violations of constitutional rights
and acts of retaliation committed by federal
government officials, officials and employees of the
State of Maryland and private citizens and corporate
entities. Generally, an action may be brought in the
judicial district "in which any defendant resides, if
all defendants are residents of the State in which the
district is located." 28 U.S.C. §1391 (b) (1), or in the
district "in which a substantial part of the events or
omissions giving rise to the claim occurred, or a
substantial part of the property that is the subject of
the action is situated[,]" id. § 1391 (b) (2). Because
the majority of the parties reside or conduct business

46

in Maryland, the District of Columbia is not the
proper forum for the adjudication of this matter. In
the interest of justice, this action will be transferred
to the United States District Court for the District of
Maryland. Rulings on the plaintiff's application to
proceed in forma pauperis and her Emergency
Motion to Vacate and Rescind Eviction are left for
the transferee court to decide.
It is hereby
ORDERED that this action shall be TRANSFERRED
FORTHWITH to the United States District Court for
the District of Maryland.
SO ORDERED.
(s) Amit P. Mehta
United States
District Judge

DATE:

4/30/15

